 Depafiment of Health and Human Setices

ADMINISTUTION   ON AGING
           AND
        OFFICE OF
   INSPECTOR GENERAL




                    ~RIL   1993



                                  ————-
                              ADMINISTRATION ON AGING

The Administration on Aging (AoA) is the principal Federal agency designed to carry out the
provisions of the Older Americans Act (OAA). It advises the Secretary of Health and Human
Services and other Federal agencies on the characteristics, circumstances and needs of older
individuals. Further, it develops policies, plans, and programs designed to promote their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest program -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization of older individuals. The second program -- Title VI -- consists of
discretionary grants with the same purpose as Title III, but to meet the unique needs of older
Native Americans. The third program -- Title IV -- is also discretionary. Its purpose is to fund
research, demonstration. and training activities to elicit knowledge and techniques to impr~vc
the circumstances of older Americans. (The 1992 Amendments to the OAA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. Prior to the 1992 Amendments. Title III of the OAA provided the
funds for these activities.)

                            OFFICE OF INSPECXOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452. :]s
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of benetlciaries served by those programs. This
statutory mission is carried out through a nationwide network of audits. investigations, and
inspections conducted by three OIG operating components: the Office of Audit Smwices. the
O[fice of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses tO
correct them.

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department.
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

                                         THIS REPORT

This report is the result of a joint effort between AoAi and OIG/OEI to assess the
implementation of Title 111of the Older Americans Act. OIG staff in the New York and
Dallas regional offices provided technical support to the joint project. AoA staff in New York
and Dallas directed the project with all regional offices participating in the development of
instruments and data collection.

 For additional information, please contact:

 AoA            John DiaL Regional Program Director-Dallas
 OIG            Jack Molnar, Project Leader-New York




                                                                                  _-   —.
 Department of Health and Human Services
ADMINISTRATION ON AGING

           AND

        OFFICE OF
   INSPECTOR GENERAL




 STATE IMPLEMENTA~ON   OF=
NUTRITION REQUIREMENTS  OF THE
     OLDER AMERICANS ACT




             APRIL 1993   OEI-02-91-01515

                EXECUTIVE                         SUMMARY
PURPOSE

To review State Units’ on Aging (SUA) implementation       of the nutrition requirements
of Title III of the Older Americans Act (OAA).

BACKGROUND

In an effort to strengthen its stewardship of the O*    the Commissioner of the
Administration of Aging (AoA) requested technical assistance from the Office of
Inspector General (OIG) in designing a review of their primary Title III grantees --
SUAS. After reviewing traditional and current stewardship activities, and discussing
potential approaches for future efforts, we agreed that a review of individual States
would be instituted in such a way as to provide the Commissioner with an overview of
how States are implementing key components of Title III. In order to conserve
limited travel funds the reviews would be conducted on a sample of States and would
focus on only five programmatic areas -- stewardship, targeting, ombudsman, nutrition,
and financial management.

This report on nutrition addresses congregate and home-delivered meal programs, and
related services, such as nutrition education. It focuses on issuing guidance on and
monitoring implementation of the key nutrition requirements of Title III of the OAA,
including the area planning process.

METHODOLOGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. In the first step of
the sampling process, States were divided into four strata based upon the number of
older individuals in each State. In the second step, five States were selected from
each stratum. This stratified, random sample
                                           — permits
                                               —        a generalization of findings from
the 20 sample States to the Nation.

FINDINGS

States Address A Majority Of The Nutrition Requirements,    However El&ibiWy And
Related Sem”ces Standards Need Attention

   �   About one fifth of States do not assess some of the requirement eligibility for
        congregate home-delivered meals
   �   Guidance and assessment of the use of USDA cash and commodities is often
        weak




                                              i
States Seek To Control N-n         l?ogram   COSB

  �
      Most established cost factors (i.e., cost of raw food, supplies, labor/personnel,
       transportation, etc.) for meals
  �   Many States report cost saving initiatives

States Use A Va&ty QfMetho&        And Staff To Assess Nidion      J%grams

  �   Nutrition project monitoring staff vary greatly, with only 40 percent requiring
       registered dietitians
  �   About half assess area agencies annually

States Bovi&    llaihing And Technical Ass&ance      To Address D~

  �   85 percent of States provide training and technical assistance to area agencies
  �   60 percent establish training standards




                                               ii
                       TABLE                    OF CONTENTS

EXECUTIVE          SUMMARY             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION              .........................................                                        . . . . . ...1




    AMajority      Of The Nutrition Requirements                  AreMet           .................... 4

    States Seek To Control Nutrition Program Costs . . . . . . . . . . . . . . . . . . . . . . . . 6

    Assessment Of Nutrition Programs Varies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    States Provide Nutrition Training               ................................... 9



APPENDICES

A   Appendix A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l
                            INTRODUCTION
PURPOSE

To review State Units’ on Aging (SUA) implementation of the nutrition requirements of
Title III of the Older Americans Act (OAA). In this report, the term “nutrition” refers to
congregate and home-delivered meal programs, and related services, such as nutrition
education. It focuses on issuing guidance on and monitoring implementation of the key
nutrition requirements of Title III of the O-  including the area planning process.

BACKGROUND

Under the 0~      the Administration on Aging (AoA) serves as the principal Federal
advocate for older individuals, providing national leadership in the development of
programs to address their needs. Through Title III of OAA (Grants for State and
Community Programs on Aging), AoA encourages and assists WAS and area agencies on
aging (AAAs) to implement a system of coordinated community-based services to prevent
the premature institutionalization of older individuals by allowing them to remain in their
own community.

Under Title III, AoA distributes approximately $765 million in formula grants to States
based on the age 60+ population within each State. The SUAS use about 5 percent of
the grant on administration, and then fund AAAs who then contract for the supportive
services, nutrition services and multipurpose senior centers. The single largest
component of Title 111,the nutrition program, provides approximately $450 million for
congregate and home-delivered meals. Other key program components include
supportive services (i.e., access services, in-home services and legal assistance) and the
Ombudsman program which serves as an advocate for residents in long term care
facilities.

One of AoA’s major administrative responsibilities is to provide stewardship over the
States’ implementation of the Title III program. However, AoA’s capacity to carry out its
stewardship responsibilities declined substantially during the 1980’s due to a significant
reduction in resources. More specifically, AoA sustained a 47 percent reduction in staff
and 75 percent reduction in travel funds. Each regional office had only $2,000”annually
for travel. Because they could not monitor SUAS’, AoA became further and further
removed from the activities of the SUAS and their area agencies on aging.

In an effort to strengthen its stewardship of the OAA, the Commissioner of AoA
requested technical assistance from the Office of Inspector General (OIG) in designing a
review of their primary Title III grantees -- SUAS. In response to the Commissioner’s
request, OIG staff met with key AoA headquarters and regional staff to identify
traditional and current stewardship activities, and to discuss potential approaches for
future efforts. As a result, we agreed that the review of individual States would be
instituted in such a way as to provide the Commissioner with an overview of how States
are implementing key components of Title III. The OIG agreed to assist AoA in


                                              1
developing national, standardized review instruments for key components of Title III and
in writing a report summarizing States’ implementation of the Act. We also agreed that
in order to conserve limited travel funds the reviews would be conducted on a sample of
States and would focus on only five programmatic areas -- stewardship, targeting,
ombudsman, nutrition, and financial management.

Designing the review began with the meeting of a review team of OIG and selected AoA
regional staff. They brainstormed approaches, identified Federal reporting and operating
requirements for SUAS and AA& and drafted instruments containing the review
questions and criteria. The draft instruments were shared with AoA headquarters staff
and each regional office for comments, and then revised to reflect comments.

The OIG/AoA review teams pre-tested the instruments and data collection methodology
by conducting reviews for each of the five instruments in six States located in four
different Federal regions. The pre-test identified that a great deal of time was lost
explaining criteria (interpreting law and regulation) and searching for documentation.
Accordingly, the review team modified each of the instruments and changed the data
collection methodology. The most significant change to the methodology required the
sharing of the review instruments with the States prior to the site visit in the belief that if
States are aware of and understand the review criteria being used during the review, they
will be better prepared to provide required documentation and to discuss specific issues.


METHODOLOGY

The reviews were conducted in a stratified, random sample of 20 States based upon the
population of individuals over 60 years of age in each State. These are the same data
used to allocate Title III funds among States. In the first step of the sampling process,
States were divided into four strata based upon the number of older individuals in each
State. In the second step, we selected five States from each stratum. This stratified,
random sample permits us to generalize findings from the 20 sample States to the Nation.
Table I indicates those States selected for the review process (See Table I).

We also used sampling techniques during site visits to each State for the reviews of
specific area plans and assessments.  In these instances, we selected a simple, random
sample of 10 AAAs prior to the visit to review on-site. For those States with less than 10
AA&, all AAAs were included in the review.




                                               2
                                         TABLE I


                                  SAMPLE STATES

         Stratum 1           Stratum 2          Stratum 3         Stratum 4

     California          Michigan            Wisconsin      New Hampshire
     Pennsylvania        Indiana             Colorado       North Dakota
     New York            Massachusetts       Oklahoma       Nevada
     Texas               Georgia             Maine          District
     Florida             North               Oregon           of Columbia
                            Carolina                        Montana

The data collection was conducted in two phases -- an AoA regional office desk review
and an on-site review at the SUA. During the desk review phase, we looked at area plan
guidance and program instructions, as well as the State’s assessment instruments for
AAAs to determine if they are consistent with Federal law and regulations. We also
reviewed priority services waivers and targeted populations participation data from the
State Program Report for Title III.

Following the desk review, each State was sent a proposed agenda for the site visit, a
listing of the AAAs whose area plans and assessment reports will be reviewed, a copy of
the nutrition review instrument (Appendix A), and the findings from the desk review to
be discussed during the site visit.

The review instrument focused on the guidance SUAS issued to AAAs, on key
requirements of Title 111,and on the instruments and procedures they use to assess
AAAs with those requirements. A review of area plans and assessment reports
determine whether, and to what extent, they reflect OAA requirements. The instruments
also focus on the issues of SUA operating procedures, and on training and technical
assistance activities.

We entered data from the nutrition review instruments into three databases. One
database contained the responses to the open- and closed-ended questions on the
instrument and the other two contained the reviews of 183 area plans and assessments.
The number of responses to questions vary because some questions did not apply to the
four States in Stratum 4-- NH, ND, NV, & DC -- which are single planning and service
area (SPSA) States.

The percentages cited in this report are based on the responses to specific questions
contained in the review instrument. The responses are weighted to reflect the sampling
plan and are projected to the Nation. The precision at the 90-percent confidence
intervals vary for each question from plus or minus 6 to 21 percent based upon the
nature of the question (categorical or continuous) and the number of respondents to each
question.



                                            3
                                    FINDINGS
STATES ADDRESS A MAJORITY OF THE NUTRITION Requirement%
HOWEVER ELIGIBILITY AND RELATED SERVICES STANDARDS NEED
ATI’ENTION

The single largest component of the Older Americans Act (OAA) is nutrition services.
Title III-C requires States to establish and operate nutrition projects which are required
to provide nutrition services to individuals age 60 and older and for selected other
individuals. Congregate and home-delivered meals are the most common nutrition
services provided. Title III-C provides about $450 million annually for meals in both
congregate and in-home settings. About 3.5 million individuals are served by nutrition
projects annually. The OAA and related laws and regulations establish eligibility criteria
and guidance for creating and operating nutrition projects.

Congregate Meal El&ibiZi~

Virtually all States (95 percent) provide guidance to their Area Agencies on Aging
(AAAs) concerning eligibility criteria for congregate meals. However, some States have
no criteria to assess AAAs implementation of eligibility criteria for congregate meals.
Regarding these eligibility criteria we found that:

       1)      21 percent have no assessment criteria for ensuring that each AAA has
                 procedures allowing the option to offer a meal to individuals providing
                 volunteer services during the meal hours;

       2)      20 percent have no criteria for ensuring each AAA shall establish
                 procedures allowing the option to offer a meal to individuals with
                 disabilities who reside at home with and accompany older eligible
                 individuals;

       3)      although each nutrition services project may make nutrition services
                  available to disabled individuals who have not attained 60 years of age but
                 who reside in housing facilities occupied primarily by the elderly at which
                  congregate nutrition services are provided, 12 percent of the States have
                  no criteria to review this stipulation; and

       4)      12 percent have no criteria for ensuring that nutrition services will be
                 available to spouses of eligible individuals.

Homeddivered     Meal Eligibility

States guidance on and assessment of eligibility criteria for home-delivered meals is
weaker than that for congregate meals. Three requirements were missing most
frequently.



                                               4
      1)     27 percent of States have not issued guidance on eligibility for home
               delivered meals for volunteer workers under age 60, and 36 percent do
               not assess the implementation of this eligibility criteria.

      2)     18 percent of States have not issued guidance on eligibility for home-
               delivered meals for handicapped individuals under age 60 living with a
               participant, and 22 percent do not assess the implementation of this
               eligibility criteria.

      3)     9 percent of States have not issued guidance on participant’s spouse under
               60 years of age and 12 percent do not assess the implementation of this
               eligibility criteria.

Use of the USDA Cash and Commodities     Option

Since the implementation of the OAA nutrition program, United States Department of
Agriculture (USDA) legislation made available surplus commodities to expand the
resources and meals available through the nutrition program. In the late 1970s, Federal
legislation provided States the option of also choosing cash reimbursements in-lieu of
commodities based on the number of meals served. Commodities are surplus food items
sold by USDA at a discount.

Our review of nutrition programs found that 49 percent of States elect to use the USDA
cash only option, while 51 percent use a combination of cash and commodities. Many
reasons were given for options selected by the States. The more common reasons for
using cash only were problems with the commodities. These problems included lack of
variety (31 percent), storage space and costs (17 percent), and transportation costs (17
percent). The primary reason given for using the commodities option was the availability
of bonus items (18 percent). Seven percent of States reported that they left the choice
option up to a vote of their AAAs.

A number of AoA and USDA requirements for the use of USDA cash and commodities
were frequently not addressed in guidance or assessments. We found that:

       1)    32 percent of the States have not issued guidance saying that food service
               management companies receiving donated foods must have contracts with
               the nutrition service provider. Further, 46 percent of the States do not
               assess whether food service management companies receiving donated
               foods have such contracts;

       2)    27 percent of States have not issued guidance on prompt reporting to
               USDA, and 26 percent of the States do not assess whether prompt
               reporting occurs;

       3)    35 percent of States do not assess whether there are established procedures
               for the prompt and equitable disbursement of USDA cash received;


                                            5
      4)     30 percent of the States do not assess whether only Title III-C grantees get
              USDA reimbursement;      and

      5)     24 percent of the States do not assess whether records are maintained for 3
              years on cash receipts and disbursements.

Other N&n      Requirements   of Ofi

Requirements for the collection of voluntary contributions are fully addressed by all
States in their guidance to AAAs and virtually all assess their AAAs in these areas.
However, 25 percent do not assess the collection of food stamps which can be used as
contributions.

Health and safety requirements of the OAA are more consistently addressed and
assessed by States than many other nutrition services criteria. All of the States have
issued guidance to AAAs regarding both State and local licensing requirements, as well as
health department inspections. Further, only 6 percent have no criteria for which to
monitor AAAs for these requirements. We did find, however, that 8 percent have not
issued guidance in the area of fire department inspections and 9 percent have no criteria
assessing these inspections.

Almost half of the States (48 percent) do not monitor the AAAs provision of other
nutrition services. This may be because such services are allowed at State option and not
all States call for them. These can include nutrition education and other appropriate
nutrition services for older individuals such as shopping assistance.


STATES SEEK TO CONTROL NUTRITION                 PROGRAM      COSTS

Congregate and Home-delivered    Meal Cost

The reported cost to provide meals varies among nutrition providers due, in large part, to
the use of different factors to calculate these costs. The factors used to determine meal
costs included any number of combinations of raw food, labor, transportation, supplies,
rent, equipment, and other miscellaneous costs. The key issue with cost factors is which
are used in what combinations to develop budgets and do planning. While most States
use factors to calculate the cost to provide meals, the other States either used a set price
that AAAs could allow for the cost of a meal or they did not figure these costs.

Many of the States (70 percent) have identified specific cost factors for congregate meals.
They include:

       1)     raw food (52 percent of States),
       2)     supplies (46 percent),
       3)     labor/personnel (43 percent),
       4)     transportation (34 percent),


                                             6
      5)      operations (30 percent),
       6)     space/rent (24 percent), and
       7)     equipment (14 percent).

Many States (65 percent) also specify cost factors for home-delivered   meals that include
the following factors:

       1)     raw food (48 percent of States),
       2)     supplies (46 percent),
       3)     transportation (39 percent),
       4)     labor/personnel (34 percent),
       5)     space/rent (24 percent),
       6)     operations (19 percent), and
       7)     equipment (10 percent).

In addition to reviewing cost factors, many of the States (61 percent) have reported
utilizing a variety of m~thods to help reduce the costs of required or necessary services,
to imp~ove access to semices, or to improve or increase services. Among the methods
used are:

       1)     identifying non-aging sources of funds for transportation/services
                 (20 percent);
       2)     joint consortium purchasing (17 percent),
       3)     changes in food preparation to meet ethnic, religious, or therapeutic   needs
                 (14 percent);
       4)     inter-generational programs (13 percent);
       5)     nutrition education (12 percent);
       6)      obtaining surplus or donated equipment (9 percent);
       8)      commodity usage (9 percent); and
       9)      eligibility and nutrition status screening tool (8 percent).


STATES USE A VARIETY          OF METHODS AND STAFF TO ASSESS NUTRITION
PROGRAMS

The nutrition program is a multi-faceted food service program requiring a number of
professional skills. In order to appropriately assess the efficacy and quality of the
delivery of these services, individuals trained in food service, nutrition, and dietetics
should provide a more thorough review of the status of such services. We found that
those staff who routinely perform assessments of the nutrition program have a range of
expertise and qualifications.   We found that 13 percent of the States require that
registered dietitians conduct the assessments. Another 26 percent specify using registered
dietitians as part of an assessment team. Eighteen percent require staff with dietetic
qualifications or education; 19 percent allow qualifications other than in the field of
nutrition but with working experience in the nutrition program. Twenty-two percent
permit the use of staff such as “field representatives, fiscal specialists and program


                                                 7
evaluators” (with no nutrition qualifications and expertise) to conduct the nutrition service
assessments.

While most States attempt to provide guidance concerning a majority of the requirements
for nutrition services as outlined in the OAA and related laws and regulations, they do
not always address them through the assessment instruments or the actual assessments.
In addition to the areas discussed earlier, criteria most frequently not addressed in the
assessment instruments are: provision of canned, frozen or supplemental meals in the
home-delivered meals program (40 percent of States); nutrition education services (25
percent); meals in weather emergency (18 percent); and provision of at least one meal,
five or more days per week (12 percent).

Generally, the criteria States include in their assessment instruments concentrate on
specific programmatic areas and issues. These are usually considered State priorities and
what they believe are the priorities of the Administration on Aging. Additional criteria,
not required by Federal law or regulation, have been developed by 79 percent of States.
Of these, 57 percent include criteria for menu development, and 28 percent have specific
monitoring and reporting criteria.

Ninety-eight percent of the States perform assessments of AAAs; 56 percent of these
States report that they conduct them at least annually. The 44 percent who reported
other than an annual assessment responded with a variety of time frames. Responses in
our sample range from “we (State Agency) don’t assess the area agencies, we require the
AAAs to monitor the nutrition program, “ “the last formal assessment was done in the
1988-1990 cycle,” and several States responded that they do them every 2 to 3 years. The
last completed cycle of on-site assessments was completed by 37 percent of States in
1992; 42 percent in 1991; 11 percent in 1990; and by 5 percent prior to 1990.

All States have procedures to act on deficiencies identified through assessments. Sixty
percent of States utilize follow-up letters or visits; 50 percent employ corrective action
plans; 42 percent provide technical assistance; and 14 percent perform a subsequent
evaluation.

In addition to the on-site assessments, States use a variety of activities to monitor the
performance of the Title III-funded nutrition program. All of the States routinely review
United States Department of Agriculture (USDA) program performance and other State
reports, such as those regarding the planned number of meals to be served contrasted
with the actual number of meals served. Many of the States also review USDA cash
disbursements (80 percent) and commodity withdrawals (44 percent).

In reviewing the most common problems faced by the nutrition program, as identified
through the assessment and monitoring processes, the States have identified the
following:

        1)     inadequate staff (49 percent), (i.e., numbers of and qualified personnel with
                 dietetic/nutrition educational background and experience);


                                               8
       2)     lack of resources (35 percent), (e.g., funding and equipment);
       3)     sanitation problems (31 percent);
       4)     meals-related issues (14 percent), (e.g., menu development, vendors,
                purchasing, waiting lists); and
       5)     inadequate provider assessments (6 percent) (i.e., documentation and
                follow up of AAA’s assessment and monitoring of nutrition service
                providers).

In further examining the problem of inadequate numbers of qualified staff, we noted that
73 percent of States report having hiring standards for the staffing of the Title III funded
nutrition programs. These standards range from general guidelines for “adequate and
qualified staff’ to requirements outlining specific staff positions, training requirements
(e.g., 15 hours in food protection), and minimum hours of employment (e.g., full time
director, 8 hours per month for a registered dietitian).

Although there are standards for the staffing of the program with qualified individuals,
almost half of the States report this as a problem. Several of our States in the sample
commented on this concern. One State reported on the difficulties in hiring and keeping
qualified staff due to low salaries. Another State reported the dilemma where whenever
there is a cut in budgets, the “registered dietitian” position is usually the first eliminated.
Another State recommended the need for AoA to address this concern in policy or
regulations by outlining stronger staffing standards/requirements;    since the lack of
enforcement power makes it difficult for the network to justify and maintain adequate
and qualified positions in the nutrition program.

STATES PROVIDE         TRAINING AND TECHNICAL              ASSISTANCE TO ADDRESS
DEFICIENCIES

Eighty-five percent of States report that they provide technical assistance or training to
address deficiencies identified in AAA assessments. They usually provide the training on
a regular basis to nutrition staff or as needed to others, such as managers. A common
example of the latter is new manager training or site manager training. When training
for nutrition staff occurs, it is often done at regularly scheduled (e.g., quarterly) meetings.

The technical assistance provided by SUAS to their AAAs covers a broad range of areas
and topics. Some deal directly with meal related issues such temperature control,
sanitary standards, menus, and the efficient delivery of meals. Other commonly
mentioned topics include nutrition education, meal-related services, and managing
commodities. A significant proportion of nutrition training and technical assistance
addresses administrative concerns, such as, cost controls, client screening and tracking,
targeting, and reporting.

We also found that many States (59 percent) have established standards for the training
of Title III-funded nutrition program staff. Among these States, 78 percent specify the
training topics for staff functions, 17 percent specify the frequency of training, and 25
percent identify the specific training sponsors or agencies.


                                                9
        APPENDIX    A




Review Instrument For Nutrition
                                 NUTRITION                   COMPLIANCE                            REVIEW

                                  Department of Health and Human Services
                                           Administration on Aging




State                                                                                    Date

Primary Respondent                                                                         Telephone

Review Team Leader                                                                          Telephone


                                 ----------------------------------                 ----------------              ---------


1.      Prior to the on-site visit, obtain copies of policies, procedures, and other guidance to Area
        Agencies on A~”ng (IL&is) on nutrition services j%om the Sttie Agency on Aging (State
        Agency). Review and determine whether or not these issuances address the cn”te~ia
        identified in the following table. Indictie your responses with an X in the appropn”ate
        column reflecting these codes:

                             Y (Yes)              =         Total Compliance with Criteria
                             P (Pati”al)          =         Pa~”al Compliance with Criteria
                             ,V (No)              =         L~d       h   Complhn            Cf?       with       Cn”ten-a




        Dun”ng the desk review, if the policy m~erials do   include those items necessary to
        make a determin~”on of compliance (1(, P, or N), mark NA (Not Available) in the
        Comments section of the table.


                                     CRITER1~                                          Y           P          N               CONIMENTS

          a.    1. Eligibility   for Congregate          }Ieals
                     60+
                     OA~ 307(a)f13)(A)
          b.          Handicapped(< 60) livingwith
                      participant
                      OAA307(a)(13)(1)
          c.          Handicapped( < 60) living            at meal site
                      OAA307(a)(13)(A)
          d.          Spousef < 60) of participant
                      OAA307(a)(13)(A)
          e.          Volunteer ( < 60) worker
                      OAA 307(a)( 13)(1)

          f.    2.   Eligibility for Home Delivered               %leals
                      60+
                      OAA 307(a)( 13)(A)(B)



                                                                              ii- 1
                         CRITERIA                               Y     P             N               COMMENTS


~“          Handicapped ( <60) living with
            participant
            OAA 307(a)( 13)(1): 45 CF’R
            1321. 17( f)(12); AOA-PI-89-02

h.          Spouse ( <60) of participant
            OAA 307 (a)(13)(A); 45 CFR 1321.69B

i.           Volunteer ( < 60) worker
             OAA 307 (a)(ls)(r)

j.           I&R for other participant   needs
             45 CFR 132 1.65(d)(f)

k.           Provide canned, frozen. or supplemental
             meals
             OAA Part C-2. Section 336

1.           Meals in weather emergency
             45 CFR 1321.65(e)

m.     3.   USDA Cash/Commodities
             Used by Title III-C finded providers for
             the provision of eligible meals regardless
             of the finding source
             OAA 311(a)(l) & (2)

n.           Cash purchases only U.S. -grown food
             OAA 31 l(b)(2)
                                                                           :,,..,,.       ,::.
0.           Prompt reporting to USDA	                                  ......:..,
                                                                    .,,...,,.,,,
                                                                       ..     .....
                                                                                  ,,
                                                                                       ...,.
                                                                                    .,,..,,.:
                                                                     :,,:::::::::::::::::
             OAA 31 l(c)(l)(B), 31 l(b)(2);                          :..:.:::::::::::::::
                                                                         _,,              x
                                                                          ,,.,,..,.,.,.,,,.
                                                                           .,,.,,.,.,.
                                                                    .:,:,:.:.:.:,:,..:,’
                                                                       .,.,.,.,.,.,
                                                                           ., ,.,.,
                                                                        ,.,,..,.,,
                                                                          ,,,,,,,.,,
             USDA Food Distribution Regulations,                    .,.,.
                                                                       ...............
                                                                     ...
                                                                      ..., .............
                                                                            .,,,.,.,,,.,     .,.
                                                                        ,,..,.,.   ,,,.,.,,,
                                                                       ..,.,.,.,.,,,,     ,.,.
             Part 250.42(C)(5)(i)                                    :.,x.:.:,:.,.:.:,:
                                                                        ,,,,........
                                                                           ....
                                                                            .. .....:.:..
                                                                           .::..::.:     .
 P.          Food service management companies                          ,.,  ..,,..
                                                                                 .,.,...
                                                                                   .,,,.,.:.
                                                                                          .:.
                                                                            .:..,,:
                                                                                  ..:
                                                                            .::.,,.      :::,,,
                                                                                  . :...:.
             receiving donated foods have contract                         ,.,,.  ,/,    ......
                                                                      ..:...,.:.::..
                                                                                 :,:.:,:
                                                                                 ... ,..
                                                                                 ,.,,.,..
             with the nutrition service provider                           .,...:.:.:
                                                                         ,.,     ,,,.,,
                                                                             ,,..,,.     Y.:
                                                                                         ,,,
                                                                                          ...
                                                                         ,....
                                                                           ,,:.: .    ,..:.:.:,
                                                                                  :,.,..,,.,
             USDA Regulations, Part 250, Subpart                        ..  : ..:,:.,.::::,
                                                                       ..,.,,,,     ,,.,,
                                                                           ,.,
                                                                         ,.::.::.:,:  ....
                                                                                     ..:..
                                                                                         ....
             B( 12)(c)                                                     ...:.:,,
                                                                        ........        ,,,:,:
                                                                                        .
                                                                         ..:..,...,,.,.  ,,.
             Only IHC grantees get USDA                                                 .,.,
 q.                                                                      ::,,..:
                                                                        .,:,.,,,.,:,,
                                                                              .} ..     :::.:
             reimbursement                                               .:.:.:,.,..,,
                                                                             .....
                                                                                 . ..:,.
                                                                              .. ..,,.,
                                                                         ,,,.:,,.:             ,,
                                                                          .,.,.
                                                                            .,.,  ,.::
             OAA 311(a)(l)                                                 ,.... ..:,
                                                                      ....,..::..
                                                                           ..,,.:...
 r.	         Maintain for 3 years records of cash                          ....:
                                                                              ..... .
                                                                           .:::.,.:.     .:
             received and distributed                                        ,. ,,
                                                                            :. .,..,
             USDA Food Distribution Regulations.                                 ,,,
                                                                             .::.,...,..:.
             Part 250.42 (c)(iii)                                                ,..
                                                                                ., .,.’

 s.          Establish procedures for the prompt
             and equitable disbursement of USDA
             cash received
             OAA 31 l(b)(2)




                                                          A-2
                           CRITERIA                                  Y   P   N   COMMENTS

t.     4.    Nutrition Services
              Location of nutrition    sites
              OAA 307(a)( 13)(D)

u.            Outreach to eligible individuals
              OAA 307(a)( 13)(E)

v.            Each meal provides a minimum            of 1/3
              RDA
              OAA Part C - Section 331(1)

w.            Provide at least one meal, 5 or more
              days per week
              OAA Part C - Section 331(1)

x.            Nutrition education services
              OAA Part C - Section 33 1(3)

y.            Other nutrition services
              OAA Part C - Section 33 1(3)

              List other nutrition    services in State:




z.            Special menus
              OAA 307(a)( 12)(G)

              List special menus in State:




aa.            Assure competition in provider selection
               OAA Sec. 501 (b), Comprehensive    Older
               Americans Act Amendments of 1984:
               45 CFR Part 92, 36(8) “Procurement”

bb.    5.    Voluntary Contributions
              Collect and safeguard cash
              OAA 307(a)( 13)(C)(i)

cc.            Collection of food stamps
               45 CFR 1321 .65(c)

 dd.           Confidentiality
               45 CFR 1321.67(a)(2)

 W.     6.   Health and Safety
              State and local licensing        requirements
              45 cm    1321.75

 ff.           Health department      inspections
               45 cm    1321.75


                                                               A-3
                              CRITERIA                      Y         P   N   COMMENTS
              i                                                   i
       %?l”       Fire department inspections
                  45 cm     1321.75



At this point, you should have completed the in-house compliance review of the policies,
procedures, and other guidance provided to AAAs on nutrition services. For each cn”teria la­
lgg indi~~”ng an entry of .~(),p~T~,       or NOT Av~~LE,        listitin the ~rst cohunn of
question 2 prior to the on-site interview. NOTE: For those items marked iVA as a result of the
desk review, St&e Agency responses may indictie conveti”ng the NA to Y, P, N, CMSL (Cn”ten”a
met al State level), or NSC (State Agency does not address this applicable Federal cn”ten”a). Ask
question 2 during the on-site visit following the brief explan~”on initi~”ng the intemiew.


7
-.   A few weeks ago. we requested copies of the policies, procedures, and other guidance
     provided to the Area .~gencies on Aging concerning nutrition services. These were
     reviewed against specific nutrition criteria contained in the Older Americans Act and the
     Title III regulations. During this review, we identified issuances which only partially
     addressed specific criteria. or we were unable to identify issuances addressing specific
     criteria. For these. I need to understand how the State Agency directs and guides the AAAs
     to ensure that nutrition services requirements are met for those criteria not addressed or
     partially addressed.

       Criteria # with
        No, Partial, or
       Not ..Availableentrv                     Asencv Response




                                                      A-4
      (If additional   space is required,   use the back of the previous page)


3.	   Beyond that required by Federal law or regulation.      what guidance have you provided to
      AA/M on nutrition services?

      a.




      b.               Don’t Know (Check if applicable)
4.	   Prior to the on-site visit, obtain a copy of the instrument used by the State Agency to
      assess compliance and performance of A&is with nutrition service law and regulti”ons.
      If the questions on nutrition service are part of a lizrger review instrument, ask the Sttie
      Agency to identi! or highlight those items pertaining to the review of nutrition service
      efforts. Have the St&e Agency mark the instrument            with the applicable cn”ten”a(e.g.,
      a, b, c, etc.) using a provided copy of the cn”ten”a.   17tis infonn~”onal request should be
      included in the letter thti is sent to the State Agency outlining the Compliance Review.

      Review and determine whether or not the assessment instruments address the nutrition
      service criteria identified in the follo wing table. Indicate your responses with an X in the
      approptie     column reflecting these codes:

                           Y ~es)          =        Total Compliance with Criteria
                           P (Pati”al)     =        Pa&”al Compliance with Crt”ten”a
                           N (No)          =        Not in Compliance with Cn”ten”a

      Dun-ng the desk review, if the assessment instrument and related materials do w include
      those items necessary to make a determination of compliance (Y, P, or iV), mark NA (Not
      Available) in the Comments section of the table.


                                 CRITERIA                            Y   P   N         COMNIENTS

        a.	    1. Eligibility for Congregate    Meals
                   60+
                   OAA 307(a)( 13)(A)

        b.	         Handicapped ( < 60) living with
                    participant
                    OAA 307(a)( 13)(1)

        c.	         Handicapped ( < 60) living at meal site
                    OAA 307(a) (13)(A)

        d.	         Spouse ( < 60) of participant
                    OAA 307(a)( 13)(A)

        e.	         Volunteer ( < 60) worker
                    OAA 307(a)( 13)(I)

        f.	   2.   Eligibility for Home Delivered      Meals
                    60+
                    OAA 307(a)( 13)(A)(B)

        &?.         Handicapped ( < 60) living with
                    participant
                    OAA 307(a)( 13)(1); 45 CFR
                    1321. 17(f)( 12); ‘40#4.pI.g94)~

        h.	         Spouse ( < 60) of participant
                    OAA 307 (a)( 13)(A); -$5 CFR 1321 .69B
                                                                                                        I




                                                               A-6
                       CRITERIA                             Y   P

          Volunteer (<60) worker
          OAA 307 (a)( 13)(1)
                                                                    I
.         I&R for other participant      needs
          45CFR   1321.65(d)(f)

c.        Provide canned, frozen, or supplemental
          meals
          OAA Part C-2. Section 336

1.        Meals in weather emergency
          45CFR    1321.65(e)

m.   3. USDA Cash/Commodities
         Used by Title HI-C fimded providers for
         the provision of eligible meals regardless
         of the funding source
         OAA 31 l(a)(l) & (2)

n.        Cash purchases only U.S. -g,rown food
          OAA 31 l(b)(2)

D.        Prompt reporting to USDA
          OAA 31 I(c)(1)(B), 31 l(b)(2);
          USDA Food Distribution Regulations.
          Part 250.42(C)(5)(i)                                          I



P“        Food service management companies
          receiving donated foods have contract
          with the nutrition service provider
          USDA Regulations, Part 250, Subpart
          B(12)(c)

q.         Only IIIC grtantees get USDA
           reimbursement
           OAA 311(a)(l)

r.         Maintain for 3 years records of cash
           received and distributed
           USDA Food Distribution Regulations.
           Part 250.42 (c)(iii)

s.         Establish procedures for the prompt
           and equitable disbursement of USDA
           cash received
           OAA 31 l(b)(2)

t.   4.   Nutrition Services
           Location of nutrition sites
           OAA 307(a)( 13)(D)

u.         Outreach to eligible individuals
           OAA 307(a)( 13)(E)




                                                      A-7
                                CRITERIA                          Y   P   N        COMMENTS

       v.          Each meal provides a minimum          of 1/3
                   RDA
                   OAA Part C - Section 331(1)

       w.          Provide at least one meal. 5 or more
                   days per week
                   OAA Part C - Section 531(1)

       x.          Nutrition education services
                   OAA Part C - Section 33 1(3)

       Y“          Other nutrition services
                   OAA Part C - Section 331(3)

                   List other nutn”tion services      in State:




       z.          Special menus
                   OAA 307(a)( 12)(G)

                   List speciai menus in State:




       aa.         Assure competition in provider selection
                   OAA Sec. 50 l(b), Comprehensive    Older
                   Americans Act Amendment of 1984:
                   45 CFR Part 92, 36(8) “Procurement”

       bb.   5.   Voluntary Contributions
                   Collect and safeguard cash
                   OAA 307(a)( 13)(C)(i)

       cc.         Collection of food stamps
                   45 CFR 1321.65(c)

       dd.         Confidentiality
                   45 CFR 1321.67(a)(2)

       ee.   6.   Health and Safety
                   State and local licensing   requirements
                   45 cm    1321.75

       ff.         Health department    inspections
                   45 CFR 1321.75

       W“          Fire department inspections
                   45 cm     1321.75



For each cdeti     4a-4gg indicaing         WI entry Of NO, plWTLU,       or NOT A VMLABLE,   list it in
the Jimt column of question 5 prior to the on-site interview. NOTE: For those items marked
NA as a result of the desk review, State Agency responses may indictie conve~”ng the NA to Y,
P, N, CMSL (Critezia met at St&e level), or NSC (Stae Agency does not address this applicable
Federal criten”a). Ask question 5 during the on-site visit.

5.   A few weeks ago, we also requested a copy of the assessment instrument and any applicable
     tools used by the State Agency to assess compliance and performance of AAAs with
     nutrition service law and regulations.  These were reviewed against specific nutrition service
     criteria contained in the Older Americans Act and the Title III regulations.   During this
     review, we identified issuances which only partially addressed specific criteria, or we were
     unable to identify issuances addressing specific criteria. For these, I need to understand
     how the State Agency assesses the AAAs to ensure that nutrition services requirements are
     met for those criteria not addressed or partially addressed.

     Criteria # with
     No, Partial, or
     Not Available entw
     (If additional   space is required,   use the back of the previous page)


6.   What criteria, not required by Federal law or regulation,     has the State Agent y included in
     its assessment instrument for nutrition programs?

     a.




     b.               Don’t Know (Check if applicable)
7.     Howoften does the State Agency assess the Title 111-fimdednutrition programs?

       a.         Annually
       b.         Semi-annually
       c.         Quarterly
       d.         Monthly
       e.         Other (Specijj time period)
       f.         Don’t K. IOW (Check if applicable)

8.     What are the start ; nd end dates for the last completed   cycle of on-site assessments?

       a. Start date -
       b. End date -

9.     Who routinelv conducts these assessments? (Probe: #, qualificalz”ons)




       L            individual/JOB    TITLE                       QUALIFICATIONS


        a.


        b.


        c.


        d.


        e.


        f.     Don’t Know (Circle if applicable)


 10.   What               are used to follow-up on

       a.




       b.             Don’t Know (Check if applicable)

                                                   A-11
11.   Which of the following activities does the State Agency use to monitor the Title III-funded
      nutrition programs?  (Read the following list and check responses.)

      a.            Review of reports (USDA. Program Performance.     or other State reports
                    regarding the planned number of meals to be served contrasted with the
                    number of meals actually served).
      b.            Commodity withdrawals
      c.            USDA cash disbursements
      d.            Other (ExpZain):




      e.                         (Check if applicable)


12.   What are the most common detlciencies     in the nutrition program   in this State?

      a.

      b.

      c.

      d.

      e.


      f.               Don’t Know (Check if applicable)


13.   What technical assistance or training has the State provided to address these deficiencies’?

      a.




                                                                                                .




       b.           Don’t Know (Check if applicable)
14.   Has the State agency established hiring standards for staffing Title 111-fimded nutrition
      programs?

      a.          Yes, Please explain:




      b.          No
      c.          Don’t Know (Check if applicable)

15.   Has the State agency established standards for the training of Title III-funded nutrition
      program staff?


      a.          Yes, Please explain:




      b.          No
      c.          Don’t Know (Check if applicable)

16.   Some of the factors that might be used in calculating the cost of meals would include: raw
      food, labor, space, supplies, transportation and utilities. In order to ensure a degree of
      uniformity in the calculation of meal costs, what cost factors does the State Agency allow
      when the cost of meals is being calculated?
      *
                                                FACTORS

                   CONGREGATE      MEALS                        HOME   DELIVERED     MEALS

           a.                                     aa.
      b


                                                     A-13
           b.                                      bb.
           c.                                      cc.

           d.                                       dd.

           e.                                       ee.

           f.   State Agency does not specify       ff.    State Agency does not specify allowable
                allowable cost factors                     cost factors
                (Circle if applicable)                     (Circle if applicable)

                Don’t Know                          gg.    Don’t Know
                (Circle if applicable)                     (Circle if applicable)



17.   Of the following,      which USDA option did the State choose?

      a.             Cash
      b.             Commodities
      c.             Cash and Commodities
      d.             Don’t Know (Check if applicable)

18.   Why was this option chosen?

      a.




      b.                Don’t Know (Check if applicable)




                                                   A-14
19.	   Does the State have any innovative programs that reduce costs, improve access, or
       improve/increase  services?

       a.         Yes, Please explain:




       b.         No
       c.         Don’t Know (Check if applicable)

20.	   The preselected sample of 10 Area Agencies on Aging were identified prior to the on-site
       visit. IWis sample is to be used throughout the compliance review process for all jive
       areas, the jirst compliance review being Stewardship.

       For the sample AAAs, obtain the most currently completed annual cycle of Stale Agency
       assessment instruments and con-esponding assessment repotis (if any). Review the
       assessment jindings and detenrtine the extent to which each of the sample AAAs were in
       compliance with each of the ctieti   identi!ed in Attachment A. Record your responses
       on the following table using these codes:

                         Y (l’es)        =   Total Compliance with Ctiteria
                         P (Pati)        =   Pati    Compliance with Criteti
                         N (No)          =   Not in Compliance wilh Cden”a
                         ivsc            =   No State C&eria (State Agency does not assess this
                                             Federal criteria - identified through in-house review of
                                             State Agency’s assessment tool and related m~en”ak)
                         C’MSL4          =   Ctieti   met al State level
                         o	              =   Other Finding (@wide explan~”on and indicate by
                                             repoti number and criteti number in the Comments
                                             sec~”on follo wing the table)


                                                  A-15
Name


Sample     1   2   3   4   5      6   7   8   9   10
Number

Criteria

a.
b.


c.


d.


e.


f.


:“

h.


i.


j.

k.


1.


m.


n.


o.



                           A-16
I   ~,     ‘“
          ,.
    Name , ‘“


    Sample””    1   2   3   4   5      6   7   8   9   10
    Number

    P.


    q.

    r.


    s.


    t.


    u.


    v.


    w.


    x.


    Y.

    z.


    aa.


    bb.


    cc.


    dd.




                                A-17
                 2        3   4   5      6   7   8   9
                                                         I
                                                         10




COMMENTS
      :




[INTERVIEW   COMPLETED]




                                  A-18
